App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
KEITH Y. ARAKAKI,
Plaintiff-Appellant,
v.
MEGAN J. BRENNAN,
Postmaster General;
UNITED STATES
POSTAL SERVICE,

No. 17-15885
D.C. No.
1:15-cv-00229-HG-RLP
MEMORANDUM*
(Filed Jun. 12, 2019)

Defendants-Appellees.
Appeal from the United States District Court
for the District of Hawaii
Helen W. Gillmor, District Judge, Presiding
Submitted June 10, 2019**
Honolulu, Hawaii
Before: THOMAS, Chief Judge, and CALLAHAN and
CHRISTEN, Circuit Judges.
Plaintiff Keith Arakaki appeals the district court’s
order granting summary judgment to his employer,
the United States Postal Service, on his employment
discrimination claims brought pursuant to Title VII,
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
42 U.S.C. § 2000e-3. We have jurisdiction under 28 U.S.C.
§ 1291, and we affirm.1
“We analyze Title VII claims . . . under the
McDonnell Douglas burden-shifting framework.” Well
v. Citizens Telecom Servs. Co., 922 F.3d 993, 1002 (9th
Cir. 2019) (citing McDonnell Douglas Corp. v. Green,
411 U.S. 792, 802 (1973)). This “formula requires that
plaintiffs first establish a prima facie case of discrimination.” Mayes v. WinCo Holdings, Inc., 846 F.3d 1274,
1280 (9th Cir. 2017). “If the plaintiff succeeds in doing
so, the burden shifts to the employer to articulate a legitimate, nondiscriminatory reason for its allegedly
discriminatory conduct.” Id. (internal quotation marks
omitted). Finally, “[i]f the employer articulates such a
reason, the burden shifts back to the employee to show
that the employer’s stated reason is a pretext for discrimination.” Id. (internal quotation marks and alterations omitted).
Viewing the undisputed record evidence in the light
most favorable to Arakaki, we agree with the district
court that he failed to meet his burden on summary
judgment to establish a prima facie case of discriminatory retaliation in response to protected activity. Specifically, we conclude that Lum’s handling of the IMIP
investigation, Tomooka’s “absence inquiry letter,” Arakaki’s change in shift schedule, and his assignment
to work on the Fourth of July did not constitute adverse employment actions that were “reasonably likely
1

The parties are familiar with the facts and arguments on
appeal, so we recite them only as necessary.

App. 3
to deter employees from engaging in protected activity.” Ray v. Henderson, 217 F.3d 1234, 1243 (9th Cir.
2000).
A failure to promote can constitute an adverse employment action, see, e.g., Breiner v. Nev. Dep’t of Corr.,
610 F.3d 1202, 1207 (9th Cir. 2010), but Title VII retaliation claims require proof of but-for causation. In
other words, plaintiffs advancing discriminatory retaliation theories must prove “that the unlawful retaliation would not have occurred in the absence of the
alleged wrongful action or actions of the employer.”
Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 360
(2013). Here, Arakaki fails to establish a genuine issue
for trial with respect to causation. First, he provided
no evidence establishing that two of the three hiring
board members knew about his discrimination complaints. Second, Arakaki’s only evidence supporting
causation consisted of generalized hearsay statements
regarding the third panel member. These statements
appeared only in Arakaki’s own affidavit and were
not based on Arakaki’s personal knowledge. Finally, it
is undisputed that the panel in Arakaki’s case used
standardized non-discriminatory criteria to award the
position. Even if Arakaki had made a prima facie showing of retaliation, the Postal Service offered a legitimate non-retaliatory reason for hiring someone else—
Arakaki’s scoring on the non-discriminatory criteria
was lower than that of competing applicants—and
Arakaki failed to show pretext.
Arakaki presents two additional arguments that
were not included in his complaint: (1) that the Postal

App. 4
Service failed to promptly provide him with a desk and
computer upon his return to work following a tenmonth absence; and (2) that he was suspended without
pay for a single day when he refused to meet with his
supervisor without a union representative in attendance. These allegations cannot independently form the
basis of a retaliation claim because they were raised
for the first time in opposition to summary judgment.
See Navajo Nation v. U.S. Forest Serv., 535 F.3d 1058,
1080 (9th Cir. 2008) (“[W]here, as here, the complaint
does not include the necessary factual allegations to
state a claim, raising such claim in a summary judgment motion is insufficient to present the claim to the
district court.”). Arakaki argues that these events are
evidence of pretext, not separate claims, but because
Arakaki failed to establish a prima facie case of discrimination at the initial stage of the McDonnell Douglas analysis, we need not consider evidence of pretext.
AFFIRMED.

App. 5
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
KEITH Y. ARAKAKI,
Plaintiff,
vs.
MEGAN J. BRENNAN,
Postmaster General;
UNITED STATES
POSTAL SERVICE,
Defendants.

) Civil No.
) 15-00229 HG-RLP.
)
)
)
)
)
)
)
)

ORDER GRANTING DEFENDANTS’
AMENDED MOTION FOR SUMMARY
JUDGMENT (ECF NO. 29)
(Filed Mar. 31, 2017)
Plaintiff Keith Y. Arakaki filed a Complaint alleging claims of discrimination and retaliation in violation of Title VII of the Civil Rights Act of 1964, 42
U.S.C. §2000e et seq., against his employer, the United
States Postal Service and Postmaster General Megan
J. Brennan.
Defendants moved for summary judgment as to
each of Plaintiff ’s claims.
Plaintiff withdrew his discrimination claims.
Plaintiff opposes summary judgment on his claim
alleging unlawful retaliation.

App. 6
Defendants’ Amended Motion for Summary Judgment (ECF No. 29) is GRANTED.
PROCEDURAL HISTORY
On June 15, 2015, Plaintiff Keith Y. Arakaki
(“Plaintiff ”) filed a Complaint against Defendants
United States Postal Service and Postmaster General
Megan J. Brennan (collectively, “Defendants”). (ECF
No. 1).
On October 12, 2016, Defendants filed an amended
MOTION FOR SUMMARY JUDGMENT (ECF No.
29), MEMORANDUM IN SUPPORT OF MOTION
FOR SUMMARY JUDGMENT (ECF No. 29-1), and
DEFENDANTS’ CONCISE STATEMENT OF FACTS
IN SUPPORT OF DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT (ECF No. 30).
On October 24, 2016, Plaintiff filed PLAINTIFF
KEITH Y. ARAKAKI’S EX-PARTE MOTION TO
EXTEND DEADLINE TO FILE OPPOSITION TO
DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT, FILED OCTOBER 12, 2016. (ECF No. 32).
On October 25, 2016, the Court filed a Minute Order granting Plaintiff ’s motion for extension of time to
file his Opposition. (ECF No. 33).
On November 23, 2016, Plaintiff filed PLAINTIFF
KEITH Y. ARAKAKI’S OPPOSITION TO DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT (ECF
No. 35) and PLAINTIFF KEITH Y. ARAKAKI’S CONCISE STATEMENT OF FACTS IN OPPOSITION TO

App. 7
DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT, FILED OCTOBER 12, 2016 (ECF No. 36).
On December 13, 2016, Defendants filed their REPLY MEMORANDUM IN FURTHER SUPPORT OF
MOTION FOR SUMMARY JUDGMENT. (ECF No.
37).
On January 17, 2017, the Court held a hearing on
Defendants’ Amended Motion for Summary Judgment.
(ECF No. 44).
BACKGROUND
Plaintiff ’s Employment with the United States
Postal Service
In August 2002, Plaintiff Keith Y. Arakaki (“Plaintiff ”), an Okinawan male, began his employment with
Defendant United States Postal Service (“Postal Service”). (Declaration of Keith Arakaki (“Arakaki Decl.”)
at ¶ 1, attached to Pla.’s Concise Statement of Facts
(“CSF”), ECF No. 36-1).
Beginning in 2010, Plaintiff worked as a Supervisor of Maintenance Operations at the Postal Service’s
Processing Distribution Center in Honolulu, Hawaii.
(Id. at ¶¶ 1; 3). Plaintiff was assigned to the second of
three shifts, which started at 6:00 a.m. and ended at
2:30 p.m. (Id. at ¶ 1).
In April 2014, Bonnie Tomooka (“Tomooka”), a
Manager of Maintenance Operations, was assigned to
the second shift. (Declaration of Bonnie Tomooka

App. 8
(“Tomooka Decl.”) at ¶ 3, attached to Defs. CSF, ECF
No. 30-1). With the transfer, Tomooka became Plaintiff ’s immediate supervisor. (Id. at ¶ 3; Arakaki Decl.
at ¶ 4). From May 2014 through September 2014, Tomooka also held supervisory responsibilities for the
first and third shifts, as she was the Manager of
Maintenance Operations of the three shifts during
that period. (Declaration of Gaylen Yonamine (“Yonamine Decl.”) at ¶ 2, Defs. CSF, ECF No. 30-3).
According to Tomooka, she neither worked nor had
any significant interaction with Plaintiff prior to becoming his immediate supervisor. (Tomooka Decl. at
¶ 3, ECF No. 30-1). Plaintiff disputes Tomooka’s assertion, stating that he had worked and interacted with
Tomooka prior to her transfer to the second shift. (Arakaki Decl. at ¶ 2, ECF No. 36-1).
Plaintiff claims that Tomooka disliked him prior
to becoming his supervisor. Plaintiff also claims that in
April 2012, Tomooka’s supervisor, Gaylen Yonamine
(“Yonamine”) told him that Tomooka may be “going after” or “gunning after” him when she becomes his supervisor, and that Plaintiff should inform Yonamine if
such behavior arose. (Arakaki Decl. at ¶ 5, ECF No. 361; EEO Investigative Affidavit of Gaylen Yonamine
(“Yonamine EEO Affidavit”) at p. 23, attached as Ex. 2
to Pla.’s CSF, ECF No. 36-4). Yonamine indicates that
he communicated his concern because Tomooka disapproved of Plaintiff ’s friendship with another employee.
(Id. at p. 23).

App. 9
Tomooka’s Planned Rotation of Maintenance
Supervisors
In early May 2014, Tomooka proposed a plan to
temporarily rotate all supervisors who had worked on
only one shift to another shift for a period two to three
months. Tomooka indicates that the plan arose from
her observation that there was a lack of teamwork and
cohesion between the three shifts, as employees failed
to grasp the different responsibilities associated with
each shift. (Tomooka Decl. at ¶ 15, ECF No. 30-1). Tomooka informed Yonamine and Chuck Lum (“Lum”),
the local union president who also served as the Postal
Service’s acting Human Resources Manager, of her
plan. Both Yonamine and Lum approved the plan. (Yonamine Decl. at ¶ 4, ECF No. 30-3; Lum Decl. at ¶ 9,
ECF No. 30-2; Tomooka Decl. at ¶ 16, ECF No. 30-1).
Tomooka’s rotation plan involved four Supervisors
of Maintenance Operations, including Plaintiff. (Tomooka Decl. at ¶ 20, ECF No. 30-1). Tomooka sought to
reassign Plaintiff from the second shift to the third
shift, which began at 2:00 p.m. and ended at 10:30 p.m.
Gordon Yoshimura, a Supervisor of Maintenance Operations who was regularly assigned to the third shift,
was scheduled to switch positions with Plaintiff on
May 10, 2014. (Id. at ¶ 17).
Shortly after learning of Tomooka’s plan and before May 10, 2014, Plaintiff informed her that he would
be unable to move to the third shift because of family
care concerns. (Id. at ¶ 18). Tomooka responded by delaying the effective date of Plaintiff ’s shift change to

App. 10
August 2, 2014, and advancing the effective dates of
two other Supervisors of Maintenance Operations’
shift changes from August 2, 2014 to May 10, 2014. (Id.
at ¶ 18).
Plaintiff ’s Complaint About Tomooka
Plaintiff alleges that on May 20, 2014, he overheard co-workers stating that Tomooka was trying to
get him terminated from the Postal Service. (Arakaki
Decl. at ¶ 24, ECF No. 36-1). Plaintiff shortly thereafter complained of the conversation, and Yonamine set
up an informal mediation involving himself, Plaintiff,
and Tomooka. The mediation occurred on May 23,
2014, during which Tomooka denied making any of the
statements Plaintiff attributed to her. (Tomooka EEO
Investigative Affidavit at pp. 2-3, Ex. 1 of Pla. CSF,
ECF No. 36-3). At the mediation, Plaintiff also complained of Tomooka’s plan to temporarily reassign him
to the third shift. (Id. at p. 3). Plaintiff asked Yonamine
to pursue the Initial Management Inquiry Process
(“IMIP”), which is an internal procedure designed to
resolve workplace conflicts. (Arakaki Decl. at ¶ 10,
ECF No. 36-1). Plaintiff subsequently sent an IMIP request via e-mail to Lum. (Lum Decl. at ¶ 3, ECF No.
30-2).
The Initial Management Inquiry Process
On June 4, 2014, Lum met with Plaintiff and Tomooka pursuant to Plaintiff ’s IMIP request. (Arakaki
Decl. at ¶ 12, ECF No. 36-1). Tomooka again denied

App. 11
stating that she was trying to get Plaintiff fired from
the Postal Service. (Id. at ¶ 13; Lum Decl. at ¶ 5, ECF
No. 30-2; Ex. G of Pla. CSF, ECF No. 30-14). Lum attests that both Plaintiff and Tomooka indicated that
they had met prior to speaking with him to resolve the
issue. (Lum Decl. at ¶ 6, ECF No. 30-2). Tomooka attests that Plaintiff told her “that he could work with
me, and I understood the matter to be resolved.” (Tomooka Decl. at ¶ 7, ECF No. 30-1). Lum concluded that
no further action was necessary. (Lum Decl. at ¶ 6,
ECF No. 30-2).
Plaintiff’s Assignment to Work on July 4, 2014
During the week of June 21-27, 2014, Tomooka
held a staffing meeting with the three Supervisors of
Maintenance Operations who were regularly assigned
to the second shift, including Plaintiff. The purpose of
the meeting was to determine which of the three Supervisors of Maintenance Operations would work on
July 4, 2014, a federal holiday. (Tomooka Decl. at ¶ 9,
ECF No. 30-1). The second shift operates with reduced
staffing on federal holidays, but one Supervisor of
Maintenance Operations is required to work on those
days. (Id. at ¶ 8).
Tomooka states that at least one Supervisor of
Maintenance Operations typically volunteers to work
on a federal holiday, as he or she would earn either additional pay or annual leave. (Id. at ¶ 9). At the meeting, however, none of the three Supervisors of
Maintenance Operations volunteered to work on July

App. 12
4, 2014. (Id.) Tomooka then selected Plaintiff to work
on July 4, 2014. According to Tomooka, Plaintiff was
chosen because he worked on the fewest number of holidays over the past ten holidays and had the lowest
seniority of the three second-shift Supervisors of
Maintenance Operations. (Id. at ¶ 10). Tomooka states
that the methodology she used to pick Plaintiff was her
usual practice. (Id.)
Plaintiff does not dispute that he was the least
senior and had worked the fewest number of holidays
among the three Supervisors of Maintenance Operations, but indicates that when Tomooka previously
worked as the Manager of Maintenance Operations for
the first and third shifts, she worked as a stand-in during the holidays when no Supervisor of Maintenance
Operations was available. (Arakaki Decl. at ¶ 15, ECF
No. 36-1). After Tomooka announced her decision to
schedule Plaintiff to work on July 4, 2014, Plaintiff
submitted a request to use his annual leave on July 3,
2014, and a separate request to earn annual leave in
lieu of holiday pay for July 4, 2014. Tomooka approved
both requests. (Leave Request Form, Ex. A of Defs.
CSF, ECF No. 30-8; Tomooka Decl. at ¶ 11, ECF No. 301).
Tomooka’s Implementation of the Temporary
Shift Rotation
On July 8, 2014, Tomooka emailed the four SMOs
who were subject to the temporary tour change (Teranishi, Yoshimura, Kanana, and Plaintiff ) reminding

App. 13
them that the initial two SMOs would return to the
original tours on August 1, 2014 and the next two supervisors would swap tours from August 2, 2014 to October 31, 2014. (Ex. C of Defs. CSF at p. 1, ECF No. 3010).
Between July 8, 2014 and July 17, 2014, Plaintiff
asked that his regular day-off schedule be carried over
to his third shift assignment. (Tomooka Decl. at ¶ 20,
ECF No. 30-1). Plaintiff ’s regular days off during the
second shift were Saturday and Sunday. (Id.) On July
17, 2014, Tomooka responded that Plaintiff would not
be able to keep his regular day-off schedule, as the
other Supervisor of Maintenance Operations for the
third shift’s days-off were Sunday and Monday, and at
least one Supervisor of Maintenance Operations was
needed to work during the third shift on Sundays. (Id.;
Ex. C of Defs. CSF at p. 1). Tomooka offered to work in
Plaintiff ’s place for some of the Sundays on which he
was scheduled to work, and asked Plaintiff to provide
her with the dates he would require an accommodation. (Ex. C of Defs. CSF at p. 2).
On July 23, 2014, Plaintiff responded by listing 21
work dates for which he sought accommodation for the
period between August 2, 2014, and October 31, 2014.
(Id. at p. 5). Plaintiff also indicated “[t]here might be
some other day(s) that I cannot foresee at this time.”
(Id.) On the same date, July 23, 2014, Tomooka replied
to Plaintiff ’s request. She stated that while she would
be able to work in his place for the first two Sundays of
his new shift assignment, she would be unable to accommodate him on the remaining requested dates. (Id.

App. 14
at p. 6). Tomooka instructed Plaintiff to submit leave
requests for the remaining dates, which would be approved subject to the Postal Service’s staffing needs.
(Id.) Plaintiff responded by expressing his dissatisfaction with Tomooka’s response, stating that the arrangement caused him significant hardship. (Id. at
p. 9). Plaintiff did not accept Tomooka’s offer to work
in his place for the first two Sundays of his new shift
assignment. (Id. at p. 13).
Plaintiff ’s Application for a Promotion
On July 27, 2014, Plaintiff applied for a promotion
to become a Manager of Maintenance Operations.
(Arakaki Decl. at ¶ 25, ECF 36-1; Manager of Maintenance Operations posting, Ex. E of Defs. CSF, ECF No.
30-12).
Plaintiff ’s Long-Term Absence from Work
On August 1, 2014, the day before his scheduled
temporary reassignment to the third shift, Plaintiff informed Tomooka via e-mail that he was feeling ill. (Tomooka Decl. at ¶ 27, ECF No. 30-1). Plaintiff left work
on the same day and did not return until June 29, 2015.
(Id. at ¶¶ 24; 30).
On August 5, 2014, Plaintiff submitted documentation concerning his absence to the Human Resources
Department but did not provide that same information
to Tomooka. (Id. at ¶ 28; Arakaki Decl. at ¶ 28, ECF No.
36-1).

App. 15
Plaintiff ’s Formal Complaint
On August 6, 2014, Plaintiff filed a formal Equal
Employment Opportunity complaint. (Arakaki Decl. at
¶ 7, ECF No. 36-1). Plaintiff ’s declaration, while difficult to understand, appears to indicate that the formal
complaint’s allegations concerned the alleged May 20,
2014 conversation he stated he overheard, Tomooka’s
act of assigning him to work on July 4, 2014, and Tomooka’s act of temporarily reassigning Plaintiff to the
third shift. (Id.)
Tomooka’s Absence Inquiry Letter
Tomooka attests that given the extended duration
of Plaintiff ’s absence, she sent an absence inquiry letter to him on August 19, 2014. (Tomooka Decl. at ¶ 28,
ECF No. 30-1). The letter stated that pursuant to
Postal Service employment procedures, Plaintiff must
produce, within five days of receipt of the letter, “medical documentation or other acceptable evidence of incapacity to work.” (Ex. D of Defs. CSF at p. 1, ECF No.
30-11). The letter advised Plaintiff of his rights pursuant to the Family and Medical Leave Act, 29 U.S.C.
2601, et seq., and provided detailed instructions concerning the information that must be provided in cases
of extended absences from work. (Id.)
Plaintiff states that Tomooka’s August 19, 2014
letter “forced me to make an emergency appointment
with my physician on August 27, 2014.” Plaintiff subsequently submitted a physician’s note to Tomooka, as
well as the documentation he previously provided to

App. 16
the Human Resources department on August 5, 2014.
(Arakaki Decl. at ¶ 28, ECF No. 36-1). Plaintiff also requested to use accrued leave during his absence from
work. (Id. at ¶¶ 28; 30). Tomooka accepted the request
and approved Plaintiff ’s absence. (Tomooka Decl. at
¶¶ 29-30, ECF No. 30-1).
Denial of Promotion
The Manager of Maintenance Operations promotion to which Plaintiff applied on July 27, 2014 was a
competitive position; 15 Postal Service employees submitted applications. (Yonamine Decl. at ¶ 7, ECF No.
30-3). To evaluate the applicants for the position, the
Human Resources department selected a review board
comprised of three senior Postal Service employees:
Daniel Hirai (“Hirai”), Risa McDowell (“McDowell”),
and Milton Kokubun (“Kokubun”). (Id. at ¶ 7). McDowell and Kokubun were not aware of Plaintiff ’s internal
complaints during their tenure on the review board.
(McDowell Decl. at ¶ 7, ECF No. 30-5; Kokubun Decl.
at ¶ 7, ECF No. 30-6, attached to Defs. CSF). Hirai attests that “whether the applicant had made a prior
complaint to the Equal Employment Office is generally
not known by the review board, and plays no role in
this process.” (Hirai Decl. at ¶ 10, attached to Defs.
CSF, ECF No. 30-4).
Hirai, McDowell, and Kokubun each ranked the
individual applicants according to the their qualifications. (Id. at ¶ 6). An applicant’s qualifications were assessed through a review of his or her responses to the

App. 17
job posting’s descriptions of the Knowledge, Skills, and
Abilities (“KSA”) that were desired for the position.
(Id.) Hirai, McDowell, and Kokubun then met to create
a consensus score for each applicant’s KSA, which
formed the basis of a total score calculation. (Id. at
¶¶ 7-8; KSA Matrix, Ex. F of Defs. CSF, ECF No. 3013). The review board then ranked the relative total
scores of the applicants. (Id. at ¶ 9).
Yonamine instructed the review board to provide
him with the names of the top four applicants. (Id.)
Plaintiff was not among the top four applicants; at
least six other applicants received higher total scores
than Plaintiff. (Ex. F of Defs. CSF at p. 3). Plaintiff did
not obtain the promotion to the Manager of Maintenance Operations position.
Plaintiff ’s Return to Work
Plaintiff states that upon his return to work in
June 2015, no desk was provided for him. Plaintiff also
states that his regular computer, which he says he
could recognize from its serial number, “disappeared.”
(Arakaki Decl. at ¶ 33).
Plaintiff also indicates that an unspecified time after he returned to work, Tomooka asked to meet with
him to discuss his work performance. (Id. at ¶ 34, ECF
No. 36-1). Plaintiff states that upon hearing this request, he repeatedly insisted that he was not comfortable meeting her without the presence of a union
representative as a witness. (Id.) Plaintiff alleges that

App. 18
Tomooka was unhappy about Plaintiff ’s position and
subsequently suspended him for a day. (Id.)
STANDARD OF REVIEW
Summary judgment is appropriate when there is
no genuine issue as to any material fact and the moving party is entitled to judgment as a matter of law.
Fed. R. Civ. P. 56(c). To defeat summary judgment there
must be sufficient evidence that a reasonable jury
could return a verdict for the nonmoving party. Nidds
v. Schindler Elevator Corp., 113 F.3d 912, 916 (9th Cir.
1997).
The moving party has the initial burden of “identifying for the court the portions of the materials on file
that it believes demonstrate the absence of any genuine issue of material fact.” T.W. Elec. Serv., Inc. v. Pacific
Elec. Contractors Ass’n, 809 F.2d 626, 630 (9th Cir.
1987) (citing Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986)). The moving party, however, has no burden to
negate or disprove matters on which the opponent will
have the burden of proof at trial. The moving party
need not produce any evidence at all on matters for
which it does not have the burden of proof. Celotex, 477
U.S. at 325. The moving party must show, however, that
there is no genuine issue of material fact and that he
or she is entitled to judgment as a matter of law. That
burden is met by pointing out to the district court that
there is an absence of evidence to support the non-moving party’s case. Id.

App. 19
If the moving party meets its burden, then the opposing party may not defeat a motion for summary
judgment in the absence of probative evidence tending
to support its legal theory. Commodity Futures Trading Comm’n v. Savage, 611 F.2d 270, 282 (9th Cir.
1979). The opposing party must present admissible evidence showing that there is a genuine issue for trial.
Fed. R. Civ. P. 56(e); Brinson v. Linda Rose Joint Venture, 53 F.3d 1044, 1049 (9th Cir. 1995). “If the evidence
is merely colorable, or is not significantly probative,
summary judgment may be granted.” Nidds, 113 F.3d
at 916 (quoting Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 249-50 (1986)).
The court views the facts in the light most favorable to the non-moving party. State Farm Fire & Casualty Co. v. Martin, 872 F.2d 319, 320 (9th Cir. 1989).
Opposition evidence may consist of declarations, admissions, evidence obtained through discovery, and
matters judicially noticed. Fed. R. Civ. P. 56(c); Celotex,
477 U.S. at 324. The opposing party cannot, however,
stand on its pleadings or simply assert that it will be
able to discredit the movant’s evidence at trial. Fed. R.
Civ. P. 56(e); T.W. Elec. Serv., 809 F.2d at 630. The opposing party cannot rest on mere allegations or denials. Fed. R. Civ. P. 56(e); Gasaway v. Northwestern Mut.
Life Ins. Co., 26 F.3d 957, 959-60 (9th Cir. 1994). When
the non-moving party relies only on its own affidavits
to oppose summary judgment, it cannot rely on conclusory allegations unsupported by factual data to create
an issue of material fact. Hansen v. United States, 7
F.3d 137, 138 (9th Cir. 1993); see also National Steel

App. 20
Corp. v. Golden Eagle Ins. Co., 121 F.3d 496, 502 (9th
Cir. 1997).
ANALYSIS
I.

PLAINTIFF’S EMPLOYMENT DISCRIMINATION CLAIMS

On June 15, 2015, Plaintiff Keith Y. Arakaki
(“Plaintiff ”) filed his Complaint, in which he alleges
claims for employment discrimination on the basis of
his race and sex, and retaliation for reporting the alleged discriminatory conduct, in violation of Title VII
of the Civil Rights Act of 1964 (“Title VII”), 42 U.S.C.
§2000e et seq. (ECF No. 1).
On October 12, 2016, Defendants United States
Postal Service (“the Postal Service”) and Postmaster
General Megan J. Brennan (collectively, “Defendants”)
filed an amended Motion for Summary Judgment as to
each of the claims in Plaintiff ’s Complaint. (ECF No.
29).
In his Opposition, Plaintiff concedes that he cannot support his employment discrimination claims.
(Pla. Opp. at p. 1, ECF No. 35). Plaintiff ’s Opposition
does not argue against Defendants’ motion for summary judgment as to the employment discrimination
claims.
The Court finds that Plaintiff has withdrawn his
employment discrimination claims.

App. 21
Defendants’ amended Motion for Summary Judgment as to Plaintiff ’s employment discrimination
claims is GRANTED.
II.

PLAINTIFF’S RETALIATION CLAIMS

Title VII prohibits employers from retaliating
against employees who have “opposed, complained of,
or sought remedies for, unlawful workplace discrimination.” Univ. of Texas Sw. Med. Ctr. v. Nassar, 133 S.Ct.
2517, 2522 (2013); 42 U.S.C. §2000e-3(a). Title VII’s
protections apply to employees of the Postal Service. 42
U.S.C. § 2000e-16; Ray v. Henderson, 217 F.3d 1234,
1240 (9th Cir. 2000).
Courts analyze Title VII retaliation cases by applying the burden-shifting framework of McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973). Dawson v.
Entek Int’l, 630 F.3d 928, 936 (9th Cir. 2011).
Under the McDonnell Douglas framework, the
plaintiff is first required to establish a prima facie case
of retaliation. Id. If the plaintiff successfully establishes a prima facie case, the burden shifts to the defendant to offer a legitimate, non-discriminatory
reason for its actions. Id. If the defendant satisfies its
burden of showing a legitimate, non-discriminatory
reason, the burden then shifts back to the plaintiff to
prove that the legitimate, non-discriminatory reason
offered by the defendant was not the employer’s true
reason, but was a pretext for impermissible discrimination. Id.

App. 22
Prima Facie Case of Retaliation
To establish a prima facie case of retaliation,
Plaintiff must demonstrate that:
(1) He engaged in a protected activity;
(2) Defendants subjected him to an adverse employment action; and
(3) a causal link existed between the protected
activity and the adverse employment action.
Raad v. Fairbanks N. Star Borough Sch. Dist., 323 F.3d
1185, 1197 (9th Cir. 2003).
The Supreme Court has recognized that a plaintiff
alleging unlawful retaliation pursuant to Title VII
must establish “but-for” causation, meaning the employee must demonstrated [sic] that he would not have
suffered the adverse employment action but for his engagement in protected activity. Nassar, 133 S.Ct. at
2533. But-for causation may be shown through direct
and circumstantial evidence. Yartzoff v. Thomas, 809
F.2d 1371, 1376 (9th Cir. 1987).
A. Engagement in Protected Activity
A Postal Service employee must pursue internal
administrative remedies, including making an informal complaint for counseling and filing a formal administrative complaint, before bringing a Title VII
action in federal court. Sommatino v. United States,
255 F.3d 704, 707-08 (9th Cir. 2001) (citing 29 C.F.R.
§ 1614.105 (concerning informal counseling) and 29

App. 23
C.F.R. § 1614.106 (concerning formal complaints)). The
initiation of the administrative remedy process within
the Postal Service constitutes protected activity under
Title VII. Gomez v. U.S. Postal Serv., 32 F. App’x 889,
892 (9th Cir. 2002).
Between May 20, 2014, and May 23, 2014, Plaintiff
complained that he overheard co-workers stating that
his supervisor, Bonnie Tomooka (“Tomooka”), “was trying to get [Plaintiff ] fired.” (Arakaki Decl. at ¶ 24, ECF
No. 36-1). In response to the complaint Tomooka’s supervisor, Gaylen Yonamine (“Yonamine”), held an informal mediation with Plaintiff and Tomooka on May 23,
2014. (Tomooka EEO Investigative Affidavit at p. 2, Ex.
1 of Pla. CSF, ECF No. 36-3). At the mediation, Plaintiff
verbally requested an Initial Management Inquiry
Process (“IMIP”), which is an internal procedure designed to resolve workplace conflicts. (Arakaki Decl. at
¶ 10). Plaintiff subsequently filed a formal Equal Employment Opportunity complaint with the Postal Service on August 6, 2014. (Id. at ¶ 7).
Plaintiff began engaging in protected activity
when he made the informal complaint about Tomooka
between May 20 and May 23, 2014. Gomez, 32 F. App’x
at 892; see also Kraus v. Presidio Trust Facilities
Div./Residential Mgmt. Branch, 572 F.3d 1039, 1044-46
(9th Cir. 2009) (broadly interpreting the internal complaint requirement to include contacts with any
agency official logically connected with the process of
handling discrimination complaints).

App. 24
B. Adverse Employment Action
The appellate courts have adopted a relatively expansive view of the types of conduct that qualify as adverse employment actions. See Pardi v. Kaiser Found.
Hosps., 389 F.3d 840, 850 (9th Cir. 2004). An adverse
employment action is generally considered to be any
act that would dissuade a reasonable worker from
making or supporting a charge of discrimination. Burlington N. and Santa Fe Ry. Co. v. White, 548 U.S. 53,
68 (2006).
Despite the broad scope of the definition, the
United States Supreme Court has emphasized that
“petty slights, minor annoyances, and simple lack of
good manners” do not constitute adverse employment
actions. Id. Rather, the appellate courts generally consider more significant acts, such as termination, dissemination of a negative employment reference,
issuance of an undeserved performance review, and refusal to consider a plaintiff for a promotion, as the type
of conduct that would dissuade a reasonable worker
from making or supporting a charge of discrimination.
See Brooks v. City of San Mateo, 229 F.3d 917, 928-30
(9th Cir. 2000).
Plaintiff claims he was subjected to adverse employment actions in seven separate instances.

App. 25
1. Conclusion of the IMIP Investigation
Plaintiff faults Chuck Lum (“Lum”), the Postal
Services’ acting Human Resources Manager, for terminating the investigation of Plaintiff ’s complaint concerning Tomooka’s alleged statement that she would
try to get Plaintiff fired.
Plaintiff has provided no evidence that Lum’s decision to cease the IMIP investigation qualifies as the
type of conduct that would dissuade a reasonable
worker from making or supporting a charge of discrimination. Upon receiving the IMIP investigation request, Lum proceeded to interview both Plaintiff and
Tomooka. (Arakaki Decl. at ¶ 12, ECF No. 36-1). At the
meeting, Tomooka denied stating that she was trying
to get Plaintiff fired from the Postal Service. (Id. at
¶ 13; Lum Decl. at ¶ 5, ECF No. 30-2; Ex. G of Pla. CSF,
ECF No. 30-14). Lum attests that both Plaintiff and
Tomooka indicated that they had met prior to speaking
with him to resolve the issue. (Lum Decl. at ¶ 6, ECF
No. 30-2). Tomooka asserts that Plaintiff told her “that
he could work with me, and I understood the matter to
be resolved.” (Tomooka Decl. at ¶ 7, ECF No. 30-1).
Lum states that as a result of Plaintiff and Tomooka’s
indications that the conflict had been resolved, no further action was necessary. (Lum Decl. at ¶ 6).
Plaintiff suffered no injury or harm as a result of
Lum’s decision to cease the IMIP investigation. See
Burlington N. and Santa Fe Ry. Co., 548 U.S. at 67
(holding that the “anti-retaliation provision protects
an individual not from all retaliation, but from

App. 26
retaliation that produces an injury or harm”). He was
able to, and did in fact, continue the internal complaint
process by filing a formal Equal Employment Opportunity charge with the Postal Service, which Plaintiff
concedes was accepted for further investigation. (Arakaki Decl. at ¶ 7, ECF No. 36-1). Lum’s decision to conclude his investigation did not constitute adverse
employment action. See Swindle v. Jefferson Cnty.
Comm’n, 593 F. App’x 919, 927-29 (11th Cir. 2014)
(holding that the manner of the employer’s investigation into the plaintiff ’s complaint was not considered
to have a tangible, negative effect on her employment).
Even if Lum’s decision to cease the IMIP investigation did constitute an adverse action, Defendants
have offered a legitimate non-discriminatory reason
for the action. Davis v. Team Elec. Co., 520 F.3d 1080,
1089 (9th Cir. 2008). Defendants posit that Lum concluded the IMIP investigation after interviewing both
Plaintiff and Tomooka and understanding that they
met prior to speaking with him to resolve the issue.
(Lum Decl. at ¶ 6). Lum believed that further investigation would be unwarranted in light of his interviews
with Tomooka and Plaintiff and the “he said, she said
situation.” (Lum EEO Investigative Affidavit, Ex. 3 of
Pla. CSF, ECF No. 36-5).
Plaintiff offers no direct or specific and substantial
circumstantial evidence that shows Lum’s reason for
discontinuing the IMIP investigation to be pretextual.
Plaintiff ’s conclusory allegation that “[b]ecause of my
prior EEO case against Bonnie Tomooka, Chuck Lum
didn’t want to take action or be any part of this” is

App. 27
insufficient to show pretext. (Arakaki Decl. at ¶ 14).
Cafasso, U.S. ex rel, 637 F.3d at 1060-61.
The evidence presented establishes that even if
Plaintiff could establish a prima facie case of retaliation based on Lum’s conclusion of the IMIP investigation, he has failed to show that Defendants’ proffered
explanation for Lum’s decision to conclude the investigation was pretextual. France v. Johnson, 795 F.3d
1170, 1175 (9th Cir. 2015).
2. Assignment to Work on July 4, 2014
Plaintiff asserts that Tomooka’s decision to assign
him to work on July 4, 2014 over his objection constituted adverse employment action.
During the week of June 21-27, 2014, Tomooka
held a staffing meeting with the three Supervisors of
Maintenance Operations who were regularly assigned
to the second shift, including Plaintiff. At the meeting,
Tomooka asked for a volunteer to work on July 4, 2014,
a federal holiday on which the Postal Service continues
operations. (Tomooka Decl. at ¶¶ 8-9). Unlike prior instances, none of the three Supervisors of Maintenance
Operations volunteered. (Id. at ¶ 9). Tomooka then selected Plaintiff to work on July 4, 2014.
The Ninth Circuit Court of Appeals has recognized
that schedule changes may constitute adverse employment actions for the purposes of the Title VII prima
facie case analysis. Ray, 217 F.3d at 1243; see also
Camper v. Potter, No. CV07-2251PHX-GMS, 2010 WL

App. 28
1742537, at *2 (D. Ariz. Apr. 29, 2010) (postal service’s
act of modifying employee’s days-off was considered to
be an adverse employment action).
The United States Supreme Court has recognized,
however, that a plaintiff alleging unlawful retaliation
must establish causation by demonstrating that “butfor” his engagement in the protected activity, he would
not have suffered the adverse employment action. Nassar, 133 S.Ct. at 2533.
Plaintiff engaged in a protected activity between
May 20, 2014 and May 23, 2014, when he made an internal complaint against Tomooka. In the week of June
21-27, 2014, approximately 30 days after Plaintiff
made his internal complaint and Tomooka learned of
the complaint, she assigned him to work on July 4,
2014, over his objection. (Tomooka Decl. at ¶¶ 9-15).
Plaintiff attempts to rely on temporal proximity
alone to establish a prima facie case of retaliation. Villiarimo v. Aloha Island Air, Inc., 281 F.3d 1054, 1065
(9th Cir. 2002) (finding that a district court may infer
causation when an adverse employment action occurs
“fairly soon after the employee’s protected expression.”). While the Ninth Circuit Court of Appeals has
not defined the specific parameters to infer temporal
proximity, the appellate court has recently recognized
three months as too remote, Serlin v. Alexander Dawson Sch., LLC, 656 F. App’x 853, 856 (9th Cir. 2016),
and 36 days as sufficiently close in time, to warrant the
inference. See Bagley v. Bel-Aire Mech. Inc., 647 F.
App’x 797, 800 (9th Cir. 2016).

App. 29
Plaintiff ’s only other supporting evidence is found
in his declaration, in which he alleges that in the past,
while she worked on different shifts, Tomooka worked
as a stand-in during the holidays when no Supervisor
of Maintenance Operations was available. (Arakaki
Decl. at ¶ 15).
Plaintiff ’s evidence concerning causation is scant,
“even given the low threshold of evidence required” to
establish a prima facie case. Villiarimo, 281 F.3d at
1062. The Court finds that the record does not support
a finding of but-for causation as required pursuant to
Nassar, 133 S.Ct. at 2533.
Even if Plaintiff had demonstrated causation, Defendants have provided a legitimate, non-discriminatory reason explaining Tomooka’s decision to pick
Plaintiff to work on July 4, 2014.
The Parties agree that the second shift operates
with reduced staffing on federal holidays, but one Supervisor of Maintenance Operations is required to
work on those days. (Tomooka Decl. at ¶ 8). Tomooka
held a meeting during the week of June 21-27, 2014 to
discuss which of three Supervisors of Maintenance Operations regularly assigned to the second shift, including Plaintiff, would work on July 4, 2014. (Id. at ¶ 9).
According to Defendants, one or more Supervisors
of Maintenance Operations typically volunteers to
work on a federal holiday, as he or she would earn either additional pay or annual leave. (Id.) At the meeting, however, none of the three Supervisors of

App. 30
Maintenance Operations volunteered to work on July
4, 2014. (Id.)
Defendants state that Tomooka selected Plaintiff
to work on July 4, 2014, as he (1) was the least senior
of the three Supervisors of Maintenance Operations
who were regularly assigned to the second shift, and
(2) had previously worked the fewest number of holidays over the last ten holidays. (Id. at ¶¶ 8-10). Tomooka attests that the methodology used to select
Plaintiff was her usual practice. (Id. at ¶ 10). Defendants provided a legitimate, non-discriminatory reason
as to why Tomooka chose Plaintiff to work on July 4,
2014. Davis, 520 F.3d at 1089.
Plaintiff does not dispute that he was the least
senior of the three Supervisors of Maintenance Operations, nor does he disagree with Tomooka’s assertion
that he worked the fewest number of holidays among
the three Supervisors of Maintenance Operations.
Plaintiff instead argues that when Tomooka previously
acted as the Manager of Maintenance Operations for
the first and third shifts, she worked as a stand-in during the holidays when no Supervisor of Maintenance
Operations was available. (Arakaki Decl. at ¶ 15).
Plaintiff ’s declaration fails to show that Defendants’ proffered explanation was pretextual. The mere
fact that Tomooka may have previously offered to work
in the place of employees who did not wish to work in
the past does not discredit Defendants’ explanation as
to why Tomooka picked Plaintiff to work on July 4,

App. 31
2014. France, 795 F.3d at 1175. Plaintiff ’s claim based
on his assignment to work on July 4, 2014 fails.
3. Temporary Reassignment
Third Shift

to

the

Plaintiff claims that Tomooka’s plan to temporarily re-assign him to work during the third shift was
also an adverse employment action.
In early May 2014, Tomooka proposed a plan to
temporarily rotate all supervisors who had worked
only on one shift to another shift for two to three
months in order to remedy a lack of teamwork and cohesion between the shifts. (Tomooka Decl. at ¶ 15).
Tomooka’s rotation plan involved four Supervisors
of Maintenance Operations, including Plaintiff. (Id. at
¶ 20). Tomooka sought to reassign Plaintiff from the
second shift to the third shift, which began at 2:00 p.m.
and ended at 10:30 p.m.
Shortly after learning of the [sic] Tomooka’s plan
and before May 10, 2014, Plaintiff informed her that
he would be unable to move to the third shift because
of family care concerns. (Id. at ¶ 18). Tomooka responded by delaying the effective date of Plaintiff ’s
shift change to August 2, 2014, and advancing the effective dates of two other Supervisors of Maintenance
Operations’ shift changes from August 2, 2014 to May
10, 2014. (Id.)
On July 8, 2014, Tomooka sent an e-mail to all the
Supervisors of Maintenance Operations about the

App. 32
temporary re-assignment to different shifts. (Id. at
¶ 19). In the e-mail, Tomooka reminded Plaintiff that
beginning August 2, 2014, he would be swapping positions with the regularly-assigned Supervisor of
Maintenance Operations for the third shift. (Ex. C of
Defs. CSF at p. 1, ECF No. 30-10).
Plaintiff never worked on the third shift, as he
went on an extended leave of absence beginning August 1, 2014, the day before his scheduled temporary
reassignment to the third shift. (Tomooka Decl. at
¶¶ 24; 27; 30).
A prima facie case of retaliation can only exist if
the defendant was aware that the plaintiff had engaged in protected activity when the defendant caused
the plaintiff some adverse employment action. Thomas
v. City of Beaverton, 379 F.3d 802, 812 n. 4 (9th Cir.
2004); Raad, 323 F.3d at 1197.
The evidence presented establishes that in early
May 2014, Tomooka proposed a plan to temporarily rotate all supervisors who had worked only on one shift
to another shift for two to three months. (Tomooka
Decl. at ¶ 15). Tomooka informed Yonamine and Lum
of her plan. Both Yonamine and Lum approved the
plan and confirmed its compliance with applicable labor agreements and workplace policies. (Yonamine
Decl. at ¶ 4; Lum Decl. at ¶ 9; Tomooka Decl. at ¶ 16).
The rotation plan involved Plaintiff and three other
Supervisors of Maintenance Operations. (Tomooka
Decl. at ¶ 20). Tomooka originally scheduled Plaintiff
to move from the second shift to the third shift on May

App. 33
10, 2014, until Plaintiff ’s objection precipitated her to
accommodate him by delaying the effective date of the
shift change until August 2, 2014. (Id. at ¶¶ 17-18).
Tomooka learned of Plaintiff ’s internal complaint
against her on May 23, 2014. (Tomooka EEO Investigative Affidavit at p. 3, Ex. 1 of Pla. CSF). The gap in
time between Tomooka’s decision to reassign Plaintiff
to the third shift and Tomooka’s awareness of Plaintiff ’s internal complaint is fatal to Plaintiff ’s claim
that the reassignment was an act of retaliation. Brooks
v. Capistrano Unified Sch. Dist., 1 F.Supp.3d 1029,
1037 (C.D. Cal. 2014) (observing that “[i]n general, if
the decision maker does not have knowledge of the
plaintiff ’s protected activity, there can be no retaliation for engaging in that activity”). The fact that Tomooka delayed, but still intended on implementing,
Plaintiff ’s shift change after she knew of his protected
activity does not justify a causal inference; Tomooka
conceived of the plan before Plaintiff made his internal
complaint. Cheeks v. Gen. Dynamics, 22 F.Supp.3d
1015, 1036 (D. Ariz. 2014). Plaintiff has failed to show
a causal link between his protected activity and Tomooka’s decision to reassign to the third shift.
Even if Plaintiff was able to establish causation,
Defendants provided a legitimate, non-discriminatory
motive for the temporary shift reassignment.
Defendants assert that Tomooka’s decision to
move Plaintiff to the third shift was part of a larger
plan to address a lack of teamwork and cohesion
among Postal Service workers, as employees failed to

App. 34
grasp the different responsibilities associated with
each shift. (Tomooka Decl. at ¶ 15). Significantly, there
is no dispute that Tomooka decided to conduct the shift
change in early May 2014, before Plaintiff engaged in
a protected activity. Defendants underscore that Plaintiff was not the only Supervisor of Maintenance Operations affected by Tomooka’s plan; Tomooka scheduled
three other Supervisors of Maintenance Operations to
temporarily change their shifts as well. (Id. at ¶ 20).
Plaintiff states that one of the Supervisors of
Maintenance Operations affected, Gordon Yoshimura,
had prior experience working on the second shift before being temporarily transferred there. (Arakaki
Decl. at ¶ 17). Plaintiff also indicates that none of the
other three Supervisors of Maintenance Operations
who were subject to the shift change were Okinawan
or had an active case alleging discrimination. (Id. at
¶ 21). Plaintiff ’s assertions, however, do not show directly or circumstantially that Defendants’ reason for
the shift change affecting four employees was a
prextext for Tomooka to retaliate against Plaintiff.
France, 795 F.3d at 1175. Plaintiff ’s statement indicating that other similarly situated Supervisors of
Maintenance Operations were also subject to the shift
change disfavors finding pretext. See Vasquez, 349 F.3d
at 641.
4. Absence Inquiry Letter
Plaintiff claims that Tomooka’s act of sending a
letter, inquiring as the nature of Plaintiff ’s absence

App. 35
and requesting additional supporting documentation,
qualifies as an adverse employment action.
An investigation of an employee engaged in protected activity is, without more, insufficient to be an
adverse employment action. Higdon v. Mabus, 5
F.Supp.3d 1199, 1212 (S.D. Cal. 2014).
On August 1, 2014, the day before he was scheduled to begin his temporary placement on the third
shift, Plaintiff informed Tomooka via e-mail that he
was feeling ill. (Tomooka Decl. at ¶ 27). Plaintiff left
work on the same day and did not return until June
29, 2015. (Id. at ¶¶ 24; 30). Plaintiff provided some documentation of the reason behind his leave to the Human Resources department, but he did not provide
that same information to Tomooka. (Id. at ¶ 28; Arakaki Decl. at ¶ 28).
On August 19, 2014, eighteen days after Plaintiff
left work, Tomooka sent an absence inquiry letter to
him. (Tomooka Decl. at ¶ 28). The letter stated that
pursuant to Postal Service employment procedures,
Plaintiff must produce, within five days of receipt of
the letter, “medical documentation or other acceptable
evidence of incapacity to work.” (Ex. D of Defs. CSF at
p. 1, ECF No. 30-11). The letter advised Plaintiff of his
rights pursuant to the Family and Medical Leave Act,
29 U.S.C. 2601, et seq., and provided detailed instructions concerning the information that must be provided in cases of extended absences from work. (Id.)
While Tomooka’s letter may have caused Plaintiff
to seek additional supporting documentation from his

App. 36
physician, the added stress and inconvenience caused
by Tomooka’s letter is not a “materially adverse change
in the terms and conditions of employment” that would
qualify as adverse employment action. Ray, 217 F.3d at
1242 (quotations and citation omitted); Vaughn v. Donahoe, No. C 09-05746 SI, 2011 WL 2199245, at *11
(N.D. Cal. June 7, 2011) (holding that a warning letter
requiring documentation validating her disability
could not support a Title VII retaliation claim).
Plaintiff suffered no cognizable harm as a result of
the letter; Tomooka approved his extended absence after he submitted additional documentation to her.
5. Denial of Promotion
On July 27, 2014, Plaintiff applied for a promotion
to become a Manager of Maintenance Operations.
(Arakaki Decl. at ¶ 25; Manager of Maintenance Operations job posting, Ex. E of Defs. CSF, ECF no. 30-12).
A review board comprised of three senior Postal Service employees, Daniel Hirai (“Hirai”), Risa McDowell
(“McDowell”), and Milton Kokubun (“Kokubun”), analyzed Plaintiff ’s application and ranked him below the
top four applicants who were subsequently advanced
to the next step of the application process. (Yonamine
Decl. at ¶ 7, ECF No. 30-3; Hirai Decl. at ¶ 9, ECF No.
30-4; Knowledge, Skills, Abilities (“KSA”) Matrix, Ex. F
of Defs. CSF, ECF No. 30-13)). Plaintiff was denied the
promotion.
The Ninth Circuit Court of Appeals has recognized
denial of a promotion as an adverse employment

App. 37
action. See Bergene v. Salt River Project Agr. Imp. &
Power Dist., 272 F.3d 1136, 1141 (9th Cir. 2001).
Plaintiff ’s claim based on the denial of his promotion fails because he has not demonstrated a causal
link between his engagement in a protected activity
and the denial of his promotion. Plaintiff has not presented evidence that the Postal Service review board
that considered his application to become a Manager
of Maintenance Operations knew of his protected activity when it denied the promotion. Gonzalez v. Nat’l
R.R. Passenger Corp., 376 F. App’x 744, 747 (9th Cir.
2010) (knowledge of protected activity is required to
establish causation in Title VII retaliation cases) (citing Raad, 323 F.3d at 1197); Brooks, 1 F.Supp.3d at
1037.
There is no evidence that the three members of the
Postal Service’s review board, Hirai, McDowell, and
Kokubun, knew of Plaintiff ’s engagement in protected
activity when they evaluated his application and forwarded their list of finalists. See Thomas, 379 F.3d at
812 n. 4; Raad, 323 F.3d at 1197. Hirai states, and
Plaintiff does not dispute, that “whether the applicant
had made a prior complaint to the Equal Employment
Office is generally not known by the review board, and
plays no role in this process.” (Hirai Decl. at ¶ 10).
McDowell and Kokubun specifically attested that they
were not aware of Plaintiff ’s internal complaints during their tenure on the review board. (McDowell Decl.
at ¶ 7, ECF No. 30-5; Kokubun Decl. at ¶ 7, ECF No.
30-6).

App. 38
Plaintiff ’s declaration alleges that Hirai “made
comments to my co-workers that he heard from Tomooka that I was a trouble maker. I took that to mean
because (sic) I filed EEO complaints as I had not (sic)
performance issues.” (Arakaki Decl. at ¶ 32). Notwithstanding the hearsay issues involved with Plaintiff ’s
assertion, mere speculation, without more, cannot
raise an issue of fact to defeat summary judgment. Cafasso, U.S. ex rel. v. Gen. Dynamics C4 Sys., Inc., 637
F.3d 1047, 1060-61 (9th Cir. 2011) (“[t]o survive summary judgment, a plaintiff must set forth non-speculative evidence of specific facts, not sweeping conclusory
allegations”). Plaintiff has presented no admissible evidence establishing that the review board had actual
knowledge of his protected activity when they evaluated his application. Cf. McDaniels v. Mobil Oil Corp.,
527 F. App’x 615, 617 (9th Cir. 2013).
Even if Plaintiff was able to establish a prima facie
case based on the denial of his application for a promotion,
Defendants provided a legitimate, non-discriminatory
reason for denying his promotion. Defendants state
that Plaintiff was denied a promotion to the Manager
of Maintenance Operations position because a review
board objectively ranked Plaintiff ’s Knowledge, Skills,
and Abilities score below that of competing applicants.
(McDowell Decl. at ¶ 7; Kokubun Decl. at ¶ 7; Hirai
Decl. at ¶¶ 6-9).
Plaintiff does not dispute Defendants’ position
that each application was scored objectively on the basis of the application materials. (Hirai Decl. at ¶ 10).

App. 39
Plaintiff ’s speculation, without more, fails to establish pretext. Cafasso, U.S. ex rel., 637 F.3d at 106061 (“[t]o survive summary judgment, a plaintiff must
set forth non-speculative evidence of specific facts, not
sweeping conclusory allegations”).
6. Unavailable Desk and Missing Computer
Plaintiff complains that upon his return to work
in June 2015, no desk was immediately available for
him to use. Plaintiff also indicates that his regular
work computer “disappeared.” (Arakaki Decl. at ¶ 33).
Plaintiff ’s bare-bones allegations are insufficient
to raise a genuine issue of material fact as to whether
the unavailable desk and missing computer constituted an adverse employment action. Plaintiff was
away from work for approximately 11 months. The
vagueness of Plaintiff ’s declaration fails to indicate the
context and severity of the issue. Plaintiff has failed to
show that the desk and computer issues he faced upon
his return from an extended leave of absence were
anything more than “minor annoyances.” Burlington
N. and Santa Fe Ry. Co., 548 U.S. at 68.
7. One-Day Suspension
Plaintiff contends that sometime after his return
to work in June 2015, Tomooka suspended him for one
day without pay after he insisted on having a union
representative serve as a witness for a meeting to

App. 40
discuss Plaintiff ’s work performance. Plaintiff states
that his pay was reinstated after grieving the issue
with his union. (Arakaki Decl. at ¶ 34).
The United States Supreme Court has indicated
that suspensions without pay may be considered adverse employment actions, even if the employee is reinstated with full backpay. See Burlington N. and
Santa Fe Ry. Co., 548 U.S. at 73.
Plaintiff has failed to provide sufficient evidence
concerning the causal link between Tomooka’s alleged
decision to suspend him for one day and his engagement in protected activity.
Plaintiff ’s only evidence to support a causal link is
his own declaration. Plaintiff ’s declaration states that
on an undefined date sometime after he returned to
work in June 2015, Tomooka suspended him for one
day without pay. (Arakaki Decl. at ¶ 34). Even if read
in the light most favorable to Plaintiff, the declaration
does not connect the suspension to Plaintiff ’s protected
activity. “An unpleasant interaction with one’s supervisor, even one that occurs after protected activity, is not
necessarily actionable retaliation.” Ambat v. City &
Cnty. of San Francisco, No. C 07-03622 SI, 2010 WL
934006, at *5 (N.D. Cal. Mar. 15, 2010) (citing Burlington N. and Santa Fe Ry. Co., 548 U.S. at 68). Plaintiff
has not met the but-for causation standard required in
Title VII retaliation cases. Nassar, 133 S.Ct. at 2533.
Plaintiff has not satisfied the McDonnell Douglas
burden shifting framework for any of the seven alleged
adverse employment actions. See Davis, 520 F.3d at

App. 41
1089. Summary judgment is warranted as to his claims
of unlawful retaliation pursuant to Title VII.
CONCLUSION
Plaintiff Keith Y. Arakaki withdrew his claims of
employment discrimination on the basis of race and
sex pursuant to Title VII of the Civil Rights Act of 1964
(“Title VII”), 42 U.S.C. §2000e et seq.
Plaintiff failed to present evidence sufficient to defeat summary judgment as to his claims of unlawful
retaliation pursuant to Title VII.
Defendants United States Postal Service and Postmaster General Megan J. Brennan’s Amended Motion
for Summary Judgment (ECF No. 29) is GRANTED.
IT IS SO ORDERED.
DATED: March 31, 2017, Honolulu, Hawaii.
[SEAL]

/s/
Helen Gillmor
United States District Judge

Keith Y. Arakaki v. Megan J. Brennan, Postmaster general; United States Postal Service, Civil No. 15-00229
HG-RLP; ORDER GRANTING DEFENDANTS’
AMENDED MOTION FOR SUMMARY JUDGMENT (ECF NO. 29)

App. 42
AO 450 (Rev. 5/85) Judgment in a Civil Case
UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII
KEITH Y. ARAKAKI
Plaintiff(s),
V.
MEGAN J. BRENNAN,
Postmaster General;
UNITED STATES
POSTAL SERVICE
Defendant(s).

JUDGMENT IN A
CIVIL CASE
Case: CV 15-00229 HG-RLP
FILED IN THE
UNITED STATES
DISTRICT COURT
DISTRICT OF HAWAII
March 31, 2017
At 2 o’clock and 25 min p.m.
SUE BEITIA, CLERK

[]

Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.

[🗸] Decision by Court. This action came for consideration before the Court. The issues have been
considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that judgment
is entered in favor of Defendants Megan J. Brennan,
Postmaster General and the United States Postal
Service, pursuant to the “Order Granting Defendants’ Amended Motion for Summary Judgment

App. 43
(ECF No. 29)”, filed on March 31, 2017, ECF No.
[46].
March 31, 2017
Date

SUE BEITIA
Clerk
/s/ Sue Beitia by ET
(By) Deputy Clerk

App. 44
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
KEITH Y. ARAKAKI,
Plaintiff-Appellant,
v.
MEGAN J. BRENNAN,
Postmaster General;
UNITED STATES
POSTAL SERVICE,

No. 17-15885
D.C. No.
1:15-cv-00229-HG-RLP
District of Hawaii,
Honolulu
ORDER
(Filed Sep. 5, 2019)

Defendants-Appellees.
Before: THOMAS, Chief Judge, and CALLAHAN and
CHRISTEN, Circuit Judges.
Chief Judge Thomas, Judge Callahan, and Judge
Christen voted to deny the petition for rehearing and
the petition for rehearing en banc.
The full court has been advised of Plaintiffs-Appellees’ petition for rehearing en banc, and no judge of
the court has requested a vote on the petition for rehearing en banc. Fed. R. App. P. 35.
The petition for rehearing and the petition for rehearing en banc are DENIED.

